Report No. DoDIG-2013-045                 February 7, 2013





      Army Business Systems Information Technology 

              Strategy Needs Improvement

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AESIP                         Army Enterprise Systems Integration Program
ASA(FM&C)                     Assistant Secretary of the Army (Financial
                                Management and Comptroller)
DCMO                          Army Deputy Chief Management Officer
ERP                           Enterprise Resource Planning System
GCSS-A                        Global Combat Support System–Army
GFEBS                         General Fund Enterprise Business System
IPPS-A                        Integrated Personnel and Pay System–Army
LMP                           Logistics Modernization Program
NDAA                          National Defense Authorization Act
OBT                           Army Office of Business Transformation
SBR                           Statement of Budgetary Resources
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 February 7, 2013

MEMORANDUM FOR DEPUTY CHIEF MANAGEMENT OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Business Systems lnfonnation Technology Strategy Needs Improvement
         (Report No. DODIG-2013-045)

We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final repmt. Army Office of Business
Transformation officials did not develop and implement a comprehensive strategy to provide
adequate governance and program management of its enterprise resource planning systems
(ERPs) . Without a comprehensive strategy guiding the successful implementation of its ERPs,
with an ·estimated life-cycle cost of $10.1 billion, A1my management may not have the timely,
accurate, and complete information it needs for decisionmaking. In addition, the Army risks not
being able to meet its FY 2014 and FY 2017 auditability deadlines.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We received
comments from the Army Deputy Chief Management Officer on behalf of the Director, Army
Office of Business Transformation. The Army Deputy ChiefManagement Officer' s comments
to Recommendation 3 were nonresponsive. Therefore, we request additional comments from
the Director, Army Office of Business Transformation, on this recommendation by
March 11 , 2013 .

If possible, send a pmtable document format (.pdf) file containing your comments to
audfmr@dodig.mil. Copies of management comments must contain the actual signature of the
authorizing official. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you mTange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938.



                                             ~~.J-~
                                             Richard B. Vasquez, CPA
                                             Acting Assistant Inspector General
                                             Financial Management and Reporting
Report No. DODIG-2013-045 (Project No. D2011-D000FL-0237.000)                     February 7, 2013

               Results in Brief: Army Business Systems
               Information Technology Strategy
               Needs Improvement
What We Did                                               adequately monitor the development and
We determined whether the Army Business                   completion of the implementation tasks.
Systems Information Technology Strategy (the
Strategy) and its implementation provided                 Without a comprehensive Strategy guiding the
adequate governance and program management of             successful implementation of its ERPs, with an
enterprise resource planning systems (ERPs).              estimated life-cycle cost of $10.1 billion, Army
Specifically, we reviewed the February 2011               management may not have the timely, accurate,
Strategy, related business transformation plans,          and complete information it needs for
supporting documentation, implementation tasks,           decisionmaking. In addition, the Army risks not
and relevant laws and regulations.                        being able to achieve an auditable Statement of
                                                          Budgetary Resources by FY 2014 or accomplish
What We Found                                             its goal of full financial statement audit readiness
Army Office of Business Transformation (OBT)              by FY 2017.
officials did not develop and implement a
comprehensive Strategy needed for adequate                What We Recommend
governance and program management of its ERPs.            The Director, OBT, should coordinate with Army
Specifically, the Strategy did not include specific       Comptroller officials to schedule ERP audits. In
ERP implementation milestones and performance             addition, the Director should:
measures for accomplishing the Strategy’s goals,            x issue an updated Strategy to include a plan
including a plan for using ERP capabilities, or                 outlining specific milestones and
clearly define the Army Enterprise Systems                      performance measures that the Army is to use
Integration Program’s ERP integration role or                   to govern and manage ERP implementations
milestones.                                                     and to help achieve the Strategy’s goals, and
                                                            x implement controls to monitor the
This occurred because OBT officials focused on                  development and completion of the Strategy
near-term milestones but did not develop a                      implementation tasks and milestones.
comprehensive plan outlining milestones and
performance measures for all planning periods. In         Management Comments and
addition, their Strategy did not focus on                 Our Response
eliminating legacy system interfaces and                  The Army Deputy Chief Management Officer
incorporating additional functionalities into the         provided comments on behalf of the Director,
ERPs. Finally, OBT officials did not decide on the        OBT, stating agreement with recommendations to
scope and future of the Army Enterprise Systems           schedule ERP audits and update the Strategy. We
Integration Program.                                      request additional comments from the Director,
                                                          OBT, on Recommendation 3 regarding the
In addition, although OBT officials included              implementation of controls to monitor the
25 implementation tasks in the Strategy, with due         development and completion of the Strategy
dates of May 2011 and August 2011, the Army did           implementation tasks and milestones. Please see
not complete 16 of these tasks as of March 2012.          the recommendations table on the back of this page
This occurred because OBT officials did not               and provide comments by March 11, 2013.

                                                      i
Report No. DODIG-2013-045 (Project No. D2011-D000FL-0237.000)          February 7, 2013

   Recommendations Table
            Management                 Recommendations           No Additional Comments
                                      Requiring Comment                 Required
   Director, Army Office of       3                             1, 2
   Business Transformation


   Please provide comments by March 11, 2013.




                                                ii
Table of Contents 


Introduction	                                                                 1     


      Objective                                                               1     

      Background                                                              1     

      Review of Internal Controls Over the Strategy                           3



Finding. Army Needs a Comprehensive Information Technology Strategy           4


      OBT Officials Did Not Develop and Implement a Comprehensive Strategy    4

      OBT Officials Need To Adequately Monitor the Development and 

       Completion of Strategy Implementation Tasks                           11 

      Enterprise Resource Planning System Implementations Are Key 

       to Auditability                                                       13 

      Recommendations, Management Comments, and Our Response                 13 


Appendixes

      A. 	Scope and Methodology                                             16 

             Use of Computer Processed Data                                 16 

      B. Prior Coverage of Information Technology Investments 	             17 

      C. Requirements and Guidance for Defense Financial Management Systems 19 

      D. Overview of the Army’s Business Transformation Plans 	             21 

      E. 90- and 180-Day Strategy Implementation Tasks 	                    23 


Management Comments

      Under Secretary of the Army	                                           25 

Introduction
Objective
Our objective was to determine whether the Army Business Systems Information
Technology Strategy (the Strategy), dated February 14, 2011, and its implementation
ensure adequate governance and program management of enterprise resource planning
systems (ERPs). See Appendix A for the audit scope and methodology and Appendix B
for prior coverage related to the audit objective.

Background
National Defense Authorization Act Requirements
For more than 2 decades, Congress has pressed the DoD to improve systems of
accounting, financial management, and internal controls to produce reliable financial
information and to deter fraud, waste, and abuse of Government resources. In FY 2005,
the annual National Defense Authorization Act (NDAA) required development of a
defense business systems enterprise architecture, system accountability, and conditions
for obligation of funds costing in excess of $1 million. NDAA 2010 required audit
readiness validation of all financial statements by September 30, 2017, and NDAA 2012
required each Military Department to prepare a plan to validate audit readiness of the
Statement of Budgetary Resources (SBR) by September 30, 2014. (See Appendix C for
more information on the NDAAs and other related Congressional requirements and
guidance.)

Office of Business Transformation
In response to Section 908 of Public Law 110-417, “Duncan Hunter National Defense
Authorization Act for Fiscal Year 2009,” October 14, 2008 (NDAA 2009), the Army
established the Office of Business Transformation (OBT), giving it authority to require
Army agencies, commands, and other elements to carry out actions within the purpose
and scope of business transformation. OBT’s mission, as the Army’s lead business
transformation organization, is to assist the Army in transforming its business operations
to more effectively and efficiently use national resources. OBT planned to achieve this
mission by accomplishing the following objectives:

   x   improve the effectiveness and efficiency of business processes,
   x   transform business systems information technology,
   x   promote resource-informed decisionmaking, and
   x   achieve an integrated management system.

OBT, under the direction of the Army’s Chief Management Officer, developed a family
of plans to transform and improve Army business practices. These plans include the
Army Business Transformation Plan, the Business Systems Architecture and Transition
Plan, and the Strategy. See Appendix D for more information on these plans.



                                             1

Army Business Systems Information Technology Strategy
OBT published the Army’s first Strategy on February 14, 2011. The Strategy serves as
the Army’s roadmap for compiling and detailing their enterprise architecture. The
Strategy states that it leverages the capabilities and business process improvement
opportunities offered by the four ERPs currently under development or in implementation
phases within the Army. The Strategy’s goals are to:

   x   achieve audit readiness by FY 2017, 

   x   enable cost-informed enterprise governance, 

   x   improve the efficiency and effectiveness of business operations, 

   x   provide better alignment between business operations and operational forces, and 

   x   improve business process and policy alignment between the Army and the DoD. 


The Strategy describes the Army’s plan for governing ERPs and other business systems.
In 2011, the Army expanded governance by establishing the 2-Star Business Systems
Information Technology Working Group and the 3-Star Business Systems Information
Technology Review Group. In the Strategy, OBT recognizes that although the Strategy
serves as a roadmap, the Strategy will be revised in the future as missions, capabilities,
and technology change.

Army Enterprise Resource Planning Systems
ERPs are commercial software packages containing functional modules that integrate all
the information flowing through an entity. The modules can be used individually or in
conjunction with other modules as needed. ERP functional modules are either integrated
within the ERP or interfaced to external systems. Individual modules contain the
business processes needed to complete their intended function.

The Strategy focuses on the Army’s four core ERPs: Global Combat Support System-
Army (GCSS-A), General Fund Enterprise Business System (GFEBS), Integrated
Personnel and Pay System-Army (IPPS-A), and Logistics Modernization Program
(LMP).

   x	 GCSS-A will integrate the Army supply chain, obtain accurate equipment
      readiness, support split base operations, and get up-to-date status on maintenance
      actions and supplies in support of the warfighter.

   x	 GFEBS is an Army financial management system developed to improve the
      timeliness and reliability of financial information and to obtain an audit opinion.

   x	 IPPS-A will be the Army’s integrated pay system, replacing the legacy systems
      and serving as a critical piece of the Army’s future state systems environment.

   x	 LMP is the Army’s core initiative to achieve the Single Army Logistics Enterprise
      vision. LMP’s objective is to provide integrated logistics management capability




                                             2

       by managing the supply, demand, asset availability, distribution, data retention,
       financial control, and reporting.

All the Army ERPs were either deployed or in development before the development of
the Strategy. The Army began developing GCSS-A in 1997, LMP in 1999, IPPS-A in
2009, and GFEBS in 2005. As of December 31, 2011, the Army’s estimated life-cycle
cost of its ERPs is $10.1 billion.

Review of Internal Controls Over the Strategy
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the Army’s development and implementation of the Strategy. OBT
officials did not achieve the following: develop a complete plan outlining the measures
for accomplishing the goals of the Strategy, focus on eliminating legacy system interfaces
and incorporating additional functionalities into the ERPs, or outline a plan for the Army
Enterprise Systems Integration Program (AESIP). Finally, OBT did not adequately
monitor the development and completion of the implementation tasks identified in the
Strategy. We will provide a copy of the report to the senior officials responsible for
internal controls in the Department of the Army.




                                            3

Finding. Army Needs a Comprehensive
Information Technology Strategy
OBT officials did not develop and implement a comprehensive Strategy needed for
adequate governance and program management of its ERPs. Specifically, the Strategy
did not:

    x   include specific ERP implementation milestones and performance measures for
        accomplishing the Strategy’s goals. This occurred because OBT officials focused
        on near-term milestones but did not develop a comprehensive plan outlining
        milestones and performance measures for all planning periods.

    x   include a plan for using the capabilities of the Army’s four core ERPs. This
        occurred because OBT officials’ Strategy did not focus on eliminating legacy
        system interfaces and incorporating additional functionalities into the ERPs.

    x   clearly define AESIP’s ERP integration role or milestones because Army officials
        had not decided on the scope and future of AESIP.

In addition, although OBT officials included 25 implementation tasks in the Strategy with
due dates of May 2011 and August 2011, the Army did not complete 16 of these tasks as
of March 2012. This occurred because OBT officials did not adequately monitor the
development and completion of the implementation tasks.

Without a comprehensive Strategy guiding the successful implementation of its ERPs,
with an estimated life-cycle cost of $10.1 billion, Army management1 may not have the
timely, accurate, and complete information it needs for decisionmaking. In addition, the
Army risks not being able to achieve an auditable SBR by FY 2014 or accomplish its
goal of full financial statement audit readiness by FY 2017.

OBT Officials Did Not Develop and Implement a
Comprehensive Strategy
OBT officials did not develop and implement a comprehensive Strategy. Specifically,
the Strategy did not:

    x   include specific ERP implementation milestones and performance measures for
        accomplishing the Strategy’s goals,
    x   include a plan for using the capabilities of the Army’s four core ERPs, and
    x   clearly define AESIP’s ERP integration role or milestones.


1
  Army management includes commanders and financial managers relying on the information produced by
the Army ERPs.



                                                 4

Specific Enterprise Resource Planning System Implementation
Milestones and Performance Measures Needed
The Strategy did not include specific ERP implementation milestones and performance
measures for accomplishing the Strategy’s goals. Since 2005, Congress enacted laws
requiring DoD to develop details to support business modernization efforts. For example,
Public Law 108-375, “National Defense Authorization Act for Fiscal Year 2005,”
October 28, 2004 (NDAA 2005), requires DoD to develop specific time-phased
milestones, performance metrics, and a statement of the financial and nonfinancial
resource needs for defense business system modernization efforts. Congress established
additional requirements for specific performance measures for DoD in Public Law 112-
81, “National Defense Authorization Act for Fiscal Year 2012,” December 31, 2011
(NDAA 2012). NDAA 2012 requires that milestones include a justification of the time
required, metrics identifying progress made, and mitigating strategies for milestone
timeframe slippages. Although NDAA 2012 became law after the Strategy’s publication,
OBT officials should comply with it in future updates to the Strategy.

To remain relevant and continue to guide the Army’s path in business transformation, the
Strategy stated that mechanisms must be in place for assessing performance against the
Strategy’s goals. The Strategy outlined six key metrics and measures OBT officials
would assess and use to influence revisions: functional scope, integration scope, cost,
schedule, risks, and benefits realization. Briefly describing each metric and measure, the
Strategy did not include specific time-phased milestones or performance measures
needed to evaluate the Army’s progress in accomplishing the Strategy’s goals.

The Army is focused on achieving the Strategy’s goals as it prepares for SBR auditability
in 2014 and full financial statement auditability in 2017. Consequently, establishing
specific performance measures with clear deliverables is important to illustrating the
Army’s plan for accomplishing the Strategy’s goals within the allotted timeframes. For
example, because the Strategy’s success depends on the successful implementation of the
Army ERPs, the Strategy should include performance measures related to:

   x   ERP implementation schedules,
   x   audit schedules, and
   x   reengineering business processes.

To ensure that the Army progresses toward achieving the Strategy’s goals, OBT officials
need to establish a performance measurement baseline and present plans for corrective
action when the Army experiences significant delays. The need to present plans for
corrective action is particularly relevant because OBT has already encountered significant
delays in implementing the Strategy.




                                            5

Enterprise Resource Planning System Implementation Schedules
The Strategy did not include specific ERP implementation schedules as performance
measures for accomplishing the Strategy’s goals. When the Strategy was published in
February 2011, the Army stated it had fully deployed LMP2 and planned to fully deploy
GFEBS in January 2012. GFEBS was deployed incrementally, or in waves, to Army
sites. The Strategy included a schedule for the final phases of GFEBS implementation.
(See Figure 1.)

                   Figure 1. ERP Milestones Presented in the Strategy




Source: Army Business Systems Information Technology Strategy, February 14, 2011.

However, the Strategy did not contain similarly specific IPPS-A and GCSS-A
implementation schedules to serve as performance measures with time-specific targets
and milestones. The only IPPS-A milestone presented in the Strategy was a
January 2011 Milestone B decision. The Strategy did not identify when the IPPS-A
payroll and GCSS-A financial functions would be implemented. These functions are
especially important because the two systems are critical to the Army’s goal of achieving
                                       auditability. As of the third quarter of FY 2012, the
  These implementation dates are       Army planned to implement IPPS-A payroll and
  quite close to the auditability      GCSS-A financial functions in FYs 2016 and 2017,
  deadline, and delays could           respectively, and full system deployment is
  jeopardize the Army’s ability to     scheduled for FY 2017. In addition, the Army
  assert audit readiness.              plans to implement a capability upgrade to LMP
                                       and reach full deployment at the end of FY 2016.
These implementation dates are quite close to the auditability deadline, and delays could
jeopardize the Army’s ability to assert audit readiness. For Army officials to properly
manage and plan for successful ERP implementations, the Strategy should have presented
specific implementation schedules that served as performance measurement baselines.


2
 In December 2011, LMP was approved to proceed with Increment 2, which is intended to deliver
expanded logistics capability. The full deployment date for Increment 2 is September 2016.



                                                  6

To improve ERP governance and accountability, OBT should update the Strategy to
include specific ERP implementation schedules. This measurement of performance
would assist Army management in ensuring and documenting proper governance over
ERPs and in attaining the Strategy’s goals.

Enterprise Resource Planning System Audit Schedules
The Strategy did not include specific ERP audit schedules as performance measures for
accomplishing the Strategy’s goals. The Strategy stated that it defines how the Army will
secure delivery of compliant business systems and processes needed to support an
unqualified audit opinion. In addition, the Army audit readiness strategy hinges on and is
synchronized with the deployments and audits of the Army ERPs. The Strategy should
have included audits of compliance with Federal Financial Management Improvement
Act of 1996, DoD Standard Financial Information Structure, and system controls in
accordance with Government Accountability Office (GAO) Federal Information Systems
Control Audit Manual. Although the Strategy presented audit schedules for GFEBS, it
did not include audits of GCSS-A, IPPS-A and LMP. (See Figure 1.)

Presenting the plan for auditing the Army ERPs as the systems are deployed is critical to
guaranteeing that effective controls have been implemented and are operating effectively.
The Federal Managers’ Financial Integrity Act and its implementing guidance, OMB
Circular No. A-123, require all DoD managers to assess the effectiveness of management
                                        controls. If they discover material deficiencies,
  Presenting the plan for auditing      managers must report them, with a summary of
  the Army ERPs as the systems          corrective action plans. Assistant Secretary of the
  are deployed is critical to           Army (Financial Management and Comptroller)
  guaranteeing that effective           (ASA[FM&C]) is the lead organization responsible
  controls have been implemented        for ensuring that the Army meets FY 2014 and
  and are operating effectively.        FY 2017 auditability deadlines and OBT should
                                        consult ASA(FM&C) as it makes decisions
affecting the timing of ERP deployments. The timing of the ERP audits is important
because LMP is scheduled for full deployment in FY 2016, and IPPS-A and GCSS-A are
scheduled for full deployment in FY 2017, the same year the Army is required to assert
audit readiness on its financial statements. With full system deployments scheduled near
the end of FY 2017, Army officials may not have sufficient time to complete required
systems control evaluations and corrective actions for the independent auditors’ use in
auditing the financial statements in 2017. This increases the risk that the Army will be
unable to achieve its auditability goals.

After OBT published the Strategy in February 2011, ASA(FM&C) updated the “ERP
Milestones” to include various GCSS-A and LMP audits. (See Figure 2.)




                                             7

                     Figure 2. ERP Milestones as of July 24, 2012




Source: ASA(FM&C) Army Audit Readiness Overview, July 2012

These updated milestones add more detail to the Army’s plan for auditing the ERPs but
do not include DoD Standard Financial Information Structure and Federal Information
Systems Control Audit Manual audits for GCSS-A. In addition, neither a Federal
Information Systems Control Audit Manual audit for LMP nor any audits for IPPS-A
were included. To help guarantee delivery of compliant business systems needed to
support an unqualified audit opinion, OBT should coordinate with ASA(FM&C) to
schedule any remaining ERP audits and also update the Strategy to include these specific
ERP audit schedules.

Business Processes Mapping Schedule
The Strategy did not present a schedule for the detailed mapping of business processes as
performance measures to accomplish the Strategy’s goals. The mapping is used to
reengineer business processes. The Strategy stated that the Army would leverage its ERP
investments to reengineer business processes; however a detailed mapping schedule was
not included in the Strategy.

The Business Enterprise Architecture, version 7.0, published by DoD on March 12, 2010,
identified 15 End-to-End business processes to help officials view business operations
from an end-to-end perspective because many processes cut across traditional
organizations and functional business areas. The 15 End-to-End processes are: Acquire-
to-Retire, Budget-to-Report, Concept-to-Product, Cost Management, Deployment-to-
Redeployment/Retrograde, Environmental Liabilities, Hire-to-Retire, Market-to-Prospect,




                                             8

Order-to-Cash, Plan-to-Stock-Inventory Management, Proposal-to-Reward, Procure-to-
Pay, Prospect-to-Order, Service-Request-to-Resolution, and Service-to-Satisfaction.

Process maps are key documents that demonstrate how the business processes in the new
ERP system will be more streamlined and efficient. The Army identified various levels
of End-to-End process mapping. The mapping detail increases as the level number
increases. The Strategy identified mapping for 7 of the 15 End-to-End processes
(Acquire-to-Retire, Budget-to-Report, Order-to-Cash, Cost Management, Deployment-to-
Redeployment, Procure-to-Pay, and Hire-to-Retire). In addition, the Strategy identified a
milestone for completion of level 2 mapping for the other 8 of the 15 business processes
and the need for level 3 mapping for the most urgently needed processes. However, the
Strategy did not identify a need or schedule for the completion of the remaining levels of
process mapping.

The DoD Inspector General (DoD IG) has identified problems with the Army’s process
map preparation. Specifically, DoD IG Report No. D-2012-111, “Enterprise Resource
Planning Systems Schedule Delays and Reengineering Weaknesses Increase Risks to
DoD’s Auditability Goals,” July 13, 2012, found that process maps were not adequately
prepared for GFEBS and LMP. (The auditors did not review GCSS-A and IPPS-A.) To
best leverage the Army’s investment in its ERPs to reengineer business processes, OBT
should revise the Strategy to include milestones for the detailed mapping of reengineered
business processes.

OBT Officials Did Not Develop a Complete Plan for Implementing
the Strategy
OBT officials focused on near-term milestones and did not develop a complete plan
outlining milestones and performance measures for all planning periods. Although OBT
developed a separate Business Systems Information Technology Implementation Plan
(Implementation Plan) after publishing the Strategy, it did not address ERP
implementation plans and performance measures beyond 2 years. The Implementation
Plan was released on May 30, 2012, as an attachment to the 2012 Army Campaign Plan.
(See Appendix D for more on the Implementation Plan and the Army Campaign Plan.)

As part of the Strategy, OBT needs to publish a plan outlining specific near-, medium-,
and long-term milestones and performance measures with clear deliverables that the
Army will use to govern and manage ERP implementations and help achieve the
Strategy’s goals. This plan should span at least until FY 2017, to coincide with the
Strategy’s goal of achieving auditability. In addition, subsequent updates to the Strategy
should present results of progress against the milestones presented in the plan, identify
the impact of delays, and present a plan for corrective action, if needed.




                                             9

Strategy Lacks a Plan for Using Existing ERP Capabilities
The Strategy did not include a plan for using the capabilities of the Army’s four core
ERPs. The Strategy acknowledged that the Army had not exploited ERP capabilities yet
did not include a specific plan to do so. Opportunities exist to integrate more
                                        functionality within ERPs that would improve the
  The Strategy acknowledged that        control environment and make operations more
  the Army had not exploited ERP        efficient. By using the capabilities of the four core
  capabilities yet did not include      ERPs, the Army could reduce the need for
  a specific plan to do so.             interfaces with other systems. Interface
                                        weaknesses in the Army’s current information
technology systems environment demonstrate the importance of using existing ERP
capabilities. These weaknesses have significantly contributed to the lack of auditability
of the Army’s financial statements.

Various audit organizations have identified weaknesses in both the legacy and ERP
environment. For example, GAO and DoD IG have issued reports identifying significant
system interface problems. DoD IG Report No. D-2012-087, “Logistics Modernization
Program System Procure-to-Pay Process Did Not Correct Material Weaknesses,”
May 29, 2012, found that the lack of LMP integration with the entitlement process was a
significant reason for abnormal balances in accounts payable. In addition, GAO Report
No. GAO-12-134, “Implementation Weaknesses in Army and Air Force Business
Systems Could Jeopardize DOD’s Auditability Goals,” February 28, 2012, found that
interface problems necessitate that about two-thirds of invoice and receipt data be
manually entered into GFEBS from the invoicing and receiving system.

Strategy Did Not Focus on Elimination of Legacy
System Interfaces
OBT officials did not focus the Strategy on the elimination of legacy system interfaces
and incorporating additional functionalities into the ERPs. According to the Strategy,
ERPs would support a variety of goals. For example, the Strategy stated that ERPs
would support the achievement of NDAA 2010, section 1072, which states that the
business process to be supported by system modernization would be as streamlined and
efficient as practicable.

In addition, section 1072 states that the need to tailor commercially available off-the-
shelf products to meet unique requirements or incorporate unique interfaces should be
eliminated or else reduced to the maximum extent practicable. Beyond identifying the
goal of supporting the achievement of section 1072, OBT officials should have focused
the Strategy on clearly illustrating the Army's plan for ensuring ERPs streamline business
processes and eliminating or reducing unique requirements or interfaces to the maximum
extent practicable. OBT needs to revise the Strategy to shift the focus from building
interfaces to reflecting the Army’s plan for fully using ERP capabilities and minimizing
system interfaces.




                                             10

Strategy Needs To Clearly Define Army Enterprise Systems
Integration Program’s ERP Integration Role or Milestones
The Strategy did not clearly define AESIP’s ERP integration role or milestones.
Specifically, the Strategy did not identify the actions the Army would take to identify the
scope of AESIP’s future responsibilities. In November 2007, after the Army began ERP
deployment, the Army identified the need to develop AESIP. Although the Army does
not consider it an ERP, AESIP uses the same commercial SAP3 product suite as the
primary enabler of its implementation as GFEBS, GCSS-A, and LMP. The Army
awarded a $240 million contract for the development of AESIP in April 2011.

Although the Strategy outlined the Army’s approach for integration between ERPs and
AESIP, the Strategy created uncertainties because it did not present information about the
planned role of AESIP or whether another system may be needed. Although the Strategy
stated that the Army would reevaluate AESIP’s role in the future as a result of evolving
requirements and capability needs, the Strategy should have provided a plan to do so.

In addition, the Strategy did not identify specific AESIP implementation milestones. The
Strategy stated that full deployment and tight integration of the Army ERPs were key
elements. Because AESIP is the Army’s stated ERP integration platform, the Strategy
should have included specific implementation milestones illustrating the Army’s plan for
ensuring the timely deployment of AESIP. The Army must have a plan that clearly
defines AESIP’s role and milestones to successfully implement the system and to
guarantee that AESIP or another solution will provide the functionality required to
integrate the Army ERPs.

The Strategy did not clearly define AESIP’s ERP integration role or milestones because
OBT management had not decided on the scope and future of AESIP. The Strategy
stated that AESIP reflected the Army’s approach for most integration and that the ERP
program and AESIP personnel would jointly investigate the possibility of using other
master data synchronization/syndication capabilities wherever suitable. Because ERP
integration is critical to auditability, OBT should update the Strategy to include the
Army’s plan for identifying AESIP’s scope and implementation milestones.

OBT Officials Need To Adequately Monitor the
Development and Completion of Strategy
Implementation Tasks
Although OBT officials included 25 implementation tasks in the Strategy with due dates
of May 2011 and August 2011, the Army did not complete 16 of these tasks as of
March 2012. The 25 implementation tasks represented OBT’s approach to implementing
a new plan for governing ERPs by addressing governance, portfolio management, and the


3
 SAP, which stands for Systems, Applications, and Products in Data Processing, is the market leader in
enterprise application software.



                                                   11

management of End-to-End processes. These 25 tasks varied from completing level 2
and 3 mapping of business processes to developing a standard Business Process
Management and Reengineering framework. OBT officials assigned the 25
implementation tasks to various organizations, including Program Executive Office for
Enterprise Information Systems and ASA(FM&C); however, OBT officials were
ultimately responsible for holding the organizations accountable for completing assigned
tasks.

Of the 25 implementation tasks, 18 were to be completed within 90 days, and 7 were to
be completed within 180 days of the February 14, 2011, Strategy publication date.
However, as of March 2012, 10 months after the 90-day deadline and 7 months after the
180-day deadline, the Army had not completed 11 of the 90-day tasks and 5 of the 180-
day tasks.

This occurred because OBT officials did not adequately monitor the development of the
                              25 implementation tasks identified in the Strategy.
 OBT officials did not        Specifically, OBT officials did not validate the
 adequately monitor the       development of well-defined, measureable performance
 development of the           goals and objectives for these tasks. For example, one
 25 implementations tasks     implementation task was the “continued development of
 identified in the Strategy.  the BSA.” OBT officials approved this task even though
                              it did not identify the expected product to be completed
within the 90-day timeframe. Without having well-defined, measureable performance
goals and objectives, the Army cannot ensure that it can achieve the Strategy’s goals.

In addition, OBT officials did not adequately monitor the completion of the tasks and
inappropriately classified 10 of the 90-day tasks as complete. For example, one task
called for establishing and adopting specific rules and steps for business process analysis
and reengineering. OBT officials classified this task as complete in documentation
provided to DoD IG. However, as evidence of completion, OBT provided only a
partially completed draft version of a document titled “Developing Business Rules
Framework for Analyzing and Re-engineering Army Business Process,” which
established a framework for the development of the rules. Without completing this task,
the Army would be unable to demonstrate it was applying a consistent methodology for
analyzing and reengineering the business process. Furthermore, without adequately
monitoring the completion of the tasks, the Army could not ensure that it achieved the
Strategy’s goals. See Appendix E for a list of the 90-day implementation tasks OBT
officials inappropriately classified as completed.

To help achieve the goals of the Strategy, OBT officials need to implement controls to
monitor the development and completion of Strategy implementation tasks and to hold
organizations accountable for completing assigned implementation tasks. These controls
should ensure that implementation tasks are well defined and that task completions
promote desired outcomes.




                                            12

On June 27, 2012, we briefed OBT management on the results of the audit. OBT
management was receptive to the audit finding and stated that they would work to
incorporate the recommendations into the next version of the Strategy.

Enterprise Resource Planning System Implementations
Are Key to Auditability
Without a comprehensive Strategy guiding the successful implementation of its ERPs,
with an estimated life-cycle cost of $10.1 billion, Army officials may not have the timely,
accurate, and complete information they need to
                                                      In addition, the Army is relying on
make informed financial, logistical, and
                                                      the implementation of ERPs to
personnel decisions. In addition, the Army is
                                                      achieve its goal of an auditable
relying on the implementation of ERPs to
                                                      SBR by FY 2014 and audit
achieve its goal of an auditable SBR by FY 2014
and audit readiness for all of its financial          readiness for all of its financial
                                                      statements by FY 2017.
statements by FY 2017. The Assistant Secretary
of the Army, Financial Management and Comptroller, echoed this sentiment in her
September 8, 2011, statement before the House Armed Services Committee:

       Establishing and maintaining an auditable organization requires executing standardized
       business processes and systems, as well as complying with Federal accounting standards and
       the DoD business enterprise architecture. By linking the FIP [Financial Improvement Plan]
       with the Army’s ERP Strategy, we are able to ensure [that] the development and
       modernization of business systems is synchronized with audit readiness requirements.

OBT needs to update the Strategy to illustrate the plan for accomplishing the Strategy’s
goals as the Army prepares for auditability in FY 2014 and FY 2017.

Recommendations, Management Comments, and
Our Response
We recommend that the Director, Army Office of Business Transformation:

1. Coordinate with the Assistant Secretary of the Army (Financial Management
and Comptroller) to schedule Enterprise Resource Planning system audits.

Department of the Army Comments
The DCMO, responding on behalf of the Director, OBT, agreed. OBT will incorporate
the ASA(FM&C) schedule of audits, from the present until FY 2017, into an updated
Strategy.

Our Response
The DCMO’s comments were responsive, and the proposed actions met the intent of the
recommendation.




                                                 13

2. Issue an updated Strategy to include the Army’s plan to:

      a. Outline specific near-, medium-, and long-term milestones and performance
measures with clear deliverables that the Army will use to govern and manage
enterprise resource planning system implementations and help achieve the
Strategy’s goals. At a minimum, to coincide with the goal of achieving auditability,
this plan should span until FY 2017 and should include:

              i. Enterprise Resource Planning system implementation schedules;

             ii. Enterprise Resource Planning system audit schedules;

             iii.	 Milestones for mapping of reengineered business processes; and

             iv. 	Results of progress against milestones, the impact of delays, and a
                  plan for corrective action, if needed.

     b. Fully use Enterprise Resource Planning system capabilities and minimize
system interfaces.

     c. Identify the Army Enterprise System Integration Program’s scope and
implementation milestones.

Department of the Army Comments
The DCMO, responding on behalf of the Director, OBT, agreed. The Army will update
the Strategy to reflect the following:

     a.   ERP implementation schedules with near-, medium-, and long-term milestones;
     b.   ERP audit schedules from present to FY 2017;
     c.   Business process reengineering mapping milestones;
     d.   Semiannual reports on progress and any necessary corrective actions; and
     e.   An updated Army Business Policy on the optimization of ERP capabilities.

Our Response
The DCMO’s comments were responsive, and the proposed actions met the intent of the
recommendation.

3. Implement controls to monitor the development of well-defined implementation
tasks and the completion of Strategy implementation tasks and milestones that
promote desired outcomes. These controls should hold organizations accountable
for completing assigned implementation tasks.

Department of the Army Comments
The DCMO, responding on behalf of the Director, OBT, disagreed with the audit report’s
focus on the Army’s failure to complete 16 of the 25 implementation tasks identified in
the Strategy. The DCMO stated the Army would measure the Strategy’s success on the



                                           14

Army’s ability to achieve the Strategy’s three overarching goals of governance, portfolio
management, and End-to-End business process management. The DCMO provided
examples of improvements made in these three areas. In the area of governance, the
DCMO provided an example of the progression of the Business Systems Information
Technology governance group. In the area of portfolio management, the DCMO
discussed the portfolio review of the business mission area domains in March-
April 2012. Finally, the DCMO stated the Army embraced an improved use of the
15 End-to-End business processes for business process reengineering.

Our Response
The DCMO comments were nonresponsive. The DCMO’s response did not address the
implementation of controls to monitor the development and completion of Strategy
implementation tasks and to hold organizations accountable for completing assigned
tasks.

We recognize the magnitude of the Strategy’s goals, including the Army’s requirement to
achieve an auditable SBR by FY 2014 and auditable financial statements by
FY 2017. The initiatives mentioned in the DCMO’s comments represent progress in the
three areas of governance, portfolio management, and End-to-End business process
management. However, the Strategy listed 25 specific implementation tasks the Army
would complete in those three areas, which would lead to incremental progress toward
achieving the goals of the Strategy. The Army’s inability to complete 16 of those tasks
lessened potential progress in accomplishing the Strategy’s goals. The DCMO stated that
the Strategy’s implementation has multiple components, many of which will occur
repeatedly over the years. This magnifies the need to implement controls to monitor the
development and completion of well-defined Strategy implementation tasks that hold
organizations accountable for completing assigned tasks. Therefore, we request that the
Director, OBT provide additional comments to the recommendation in response to the
final report.




                                           15

Appendix A. Scope and Methodology
We conducted this performance audit from June 2011 through November 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed personnel from OBT, ASA(FM&C), and Army Assistant Chief of Staff
for Installation Management, and Program Executive Office Enterprise Information
Systems. We issued five requests for information to OBT along with various other
requests for information to ASA(FM&C). Our information requests to OBT primarily
concerned development and implementation of the ERPs and the related Strategy-specific
implementation tasks and included the following categories:

   x   ERP investment costs,
   x   governance meeting minutes and related documentation,
   x   system implementation and audit schedules,
   x   performance metrics,
   x   system requirements, and
   x   prior audit coverage.

We obtained information concerning plans and schedules for ERP system audits. We
used the information obtained as a result of our requests to determine whether the
Strategy and its implementation ensured adequate governance and program management
of ERPs.

We reviewed the Strategy published February 14, 2011, by OBT. We identified,
obtained, and reviewed other related business transformation plans (see Appendix D) to
assess their relationships and consistency with the Strategy. We reviewed prior audit
reports that identified ERP interface problems. We obtained and reviewed available
documentation supporting statements made in the Strategy. We also compared the
Strategy and supporting documentation to the laws and regulations related to the
Strategy. We reviewed documentation for the 25 implementation tasks identified in the
Strategy to determine if they were completed.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.




                                           16

Appendix B. Prior Coverage of Information
Technology Investments
During the last 5 years, GAO, DoD IG, and the U.S. Army Audit Agency have issued
17 reports relating to information technology investments. Unrestricted GAO reports can
be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

GAO
GAO-12-565R, “DOD Financial Management: Reported Status of Department of
Defense’s Enterprise Resource Planning Systems,” March 30, 2012

GAO-12-406, “DOD Financial Management: The Army Faces Significant Challenges in
Achieving Audit Readiness for its Military Pay,” March 22, 2012

GAO-12-134, “Implementation Weaknesses in Army and Air Force Business Systems
Could Jeopardize DOD’s Auditability Goals,” February 28, 2012

GAO-11-181R, “Defense Business Transformation: DOD Needs to Take Additional
Actions to Further Define Key Management Roles, Develop Measurable Goals, and
Align Planning Efforts - Briefing for Congressional Committees,” January 26, 2011

GAO-11-53, “DOD Business Transformation: Improved Management Oversight of
Business System Modernization Efforts Needed,” October 7, 2010

GAO-10-663, “Business Systems Modernization: Scope and Content of DOD’s
Congressional Report and Executive Oversight of Investments Need to Improve,”
May 24, 2010

GAO-09-888, “Information Technology: DOD Needs to Strengthen Management of Its
Statutorily Mandated Software and System Process Improvement Efforts,”
September 8, 2009

GAO-09-586, “DOD Business Systems Modernization: Recent Slowdown in
Institutionalizing Key Management Controls Needs to Be Addressed,” May 18, 2009

GAO-09-272R, “Defense Business Transformation: Status of Department of Defense
Efforts to Develop a Management Approach to Guide Business Transformation,”
January 9, 2009

GAO-07-860, “DOD Business Transformation: Lack of an Integrated Strategy Puts the
Army's Asset Visibility System Investments at Risk,” July 27, 2007



                                          17

DoD IG
DoD IG Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule
Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,”
July 13, 2012

DoD IG Report No. D-2012-087, “Logistics Modernization Program System Procure-to-
Pay Process Did Not Correct Material Weaknesses,” May 29, 2012

DoD IG Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in
the General Fund Enterprise Business System Program,” June 15, 2011

DoD IG Report No. D-2011-015, “Insufficient Governance Over Logistics
Modernization Program System Development,” November 2, 2010

DoD IG Report No. D-2010-041, “Acquisition Decision Memorandum for the Defense
Integrated Military Human Resources System,” February 5, 2010

DoD IG Report No. D-2008-108, “Agreed-Upon Procedures Related to the 10th Edition
of the Army Chief Financial Officers Strategic Plan,” July 18, 2008

Army Audit Agency
U.S. Army Audit Agency Attestation Report No. A-2009-0224-FFM, “Examination of
Federal Financial Management Improvement Act Compliance-Requirements: Global
Combat Support System-Army Release 1.1,” September 30, 2009




                                         18

Appendix C. Requirements and Guidance for
Defense Financial Management Systems
This appendix details Congressional requirements and federal guidance impacting
defense financial management systems and the development of an information
technology strategy.

Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act requires ongoing evaluations and reports
of the adequacy of the systems of internal accounting and administrative control of each
executive agency. In addition, the Federal Managers’ Financial Integrity Act requires the
preparation of an annual statement that the agency’s systems fully comply with the
requirements of the Federal Managers’ Financial Integrity Act and, if systems do not
comply, the plans and schedule for correcting any such weaknesses as described.

Chief Financial Officers Act of 1990
Public Law 101-576, “Chief Financial Officers Act of 1990,” November 15, 1990,
requires that financial statements be prepared annually. It also provides guidance to
improve financial management and internal controls to help ensure that the government
has reliable financial information and to deter fraud, waste, and abuse of government
resources.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 requires each Federal
agency to implement and maintain financial management systems that comply
substantially with Federal financial management system requirements, applicable Federal
accounting standards, and the United States Standard General Ledger at the transaction
level.

National Defense Authorization Acts
Public Law 112-81, “National Defense Authorization Act for Fiscal Year 2012,”
December 31, 2011 (NDAA 2012), requires DoD to include time-phased milestones,
performance measures, financial resource needs, and risks or challenges for integrating
new, or modifying existing, systems. These milestones should include a justification of
the time required, identify progress made, and mitigating strategies for milestone
timeframe slippages. The Act also requires each military department to validate the SBR
for audit by not later than September 30, 2014.

Public Law 111-83, “Ike Skelton National Defense Authorization Act for Fiscal
Year 2011,” January 7, 2011 (NDAA 2011), requires the DoD to establish interim
milestones for achieving audit readiness of the financial statements of the DoD, including
each major element of the SBR. In addition, the milestones should address the
existence and completeness of each major category of DoD assets.


                                           19

Public Law 111-84, “National Defense Authorization Act for Fiscal Year 2010,”
October 28, 2009 (NDAA 2010), requires DoD to develop and maintain the Financial
Improvement and Audit Readiness Plan. The Financial Improvement and Audit
Readiness Plan should describe specific actions and costs associated with correcting the
DoD financial management deficiencies. In addition, NDAA 2010 requires that the DoD
financial statements be validated as ready for audit by September 30, 2017.

Public Law 110-417, “Duncan Hunter National Defense Authorization Act for Fiscal
Year 2009,” October 14, 2008 (NDAA 2009), Section 908, requires the Secretary of each
military department, acting through the Chief Management Officer, carry out a business
transformation initiative. The objectives of the business transformation initiative include
the development of a well-defined business systems architecture and transition plan
encompassing End-to-End business processes and capable of providing accurate and
timely information in support of the military department’s business decisions.

Public Law 108-375, “National Defense Authorization Act for Fiscal Year 2005,”
October 28, 2004 (NDAA 2005), requires DoD to develop a defense business system
enterprise architecture. In addition, DoD should develop a transition plan for
implementing the enterprise architecture. The defense architecture and transition plan
should include specific time-phased milestones, performance metrics, and a statement of
financial and nonfinancial resource needs. This is to be done not later than
September 30, 2005.

OMB Circular No. A-123
OMB Circular No. A-123 Revised, “Management’s Responsibility for Internal Control,”
December 21, 2004, requires management to establish and maintain internal controls over
its financial reporting process. The Circular requires that agencies maintain
documentation of its financial reporting internal controls that are in place and the
assessment process management used to determine control effectiveness.

OMB Circular No. A-127
OMB Circular No. A-127 Revised, “Financial Management Systems,” January9, 2009,
implements the Federal Financial Management Improvement Act of 1996 requirements
and provides policies and standards for executive departments and agencies to follow
when managing financial management systems. The Circular requires that financial
events be recorded applying the requirements of the United States Standard General
Ledger. Application of United States Standard General Ledger at the transaction level
means that each time an approved transaction is recorded in the system, the system will
generate appropriate general ledger accounts for posting the transaction according to the
rules defined in the United States Standard General Ledger guidance.




                                            20

Appendix D. Overview of the Army’s
Business Transformation Plans
This appendix details the Army’s various related plans seeking to develop an integrated
management system that aligns and integrates Army business operations.

Army Campaign Plan
The Army directs actions and measures progress toward transforming the Army of the
21st Century through the Army Campaign Plan. The Army Campaign Plan lists
imperatives, outcomes, and strategic requirements as major objectives, and its objective
to “Transform Business Operations” closely relates to the Business Systems Information
Technology Strategy. This business operations transformation includes the policies,
processes, information, and systems relating to the End-to-End financial, logistics,
facility management, human capital, acquisition, administrative, and other such functions
that support the warfighter. The objective focuses on the development and
implementation of an Integrated Management System consisting of collaborative
decisions aligned with strategic enterprise guidance to achieve Army objectives and
produce required Army outcomes, including improving the integration and
synchronization of business systems with the acquisition and fielding process. A sub-
objective of the Army Campaign Plan was to strengthen the effectiveness of financial
management and improve stewardship of taxpayer dollars by adapting current business
practices to leverage the capabilities of integrated ERPs.

Business Transformation Plan
The Army Business Transformation Plan is a high-level view of what the Army plans to
accomplish but does not provide specific tasks, timelines, or metrics. The Army’s
singular business transformation goal is achieving a performance-based and outcome-
focused integrated management system that will enable cost-informed decisions and
trade-offs for successful management and improvement of the Army's business
operations. The plan indicates that the Army recognizes its need to reform its
institutional management processes and is ready to execute its processes, goals, and
objectives and deliver measurable cost savings and efficiencies. The plan lists 26
candidate business initiatives that the Assistant Secretaries of the Army and Army Staff
Principals have submitted to align people, processes, and technology more closely with
Army vision and business strategy.

Business Systems Architecture and Transition Plan
This is the Army’s first Business Systems Architecture and Transition Plan, which
provides a framework and roadmap for optimizing business operations, enabling audit
readiness, and developing a fully integrated business process platform that is aligned with
the Army business operating model. The plan is a high-level roadmap for the
transitioning of more than 750 legacy business systems and data to the Business Process
Platform. It aligns to the Business Transformation Plan and supports Portfolio
Management to fully integrated lines of business. The Business Systems Architecture


                                            21

and Transition Plan is the blueprint with a 10-year horizon for transforming the Army’s
business operations and the supporting technology using a three-phased implementation
strategy that emphasizes the Business Enterprise Architecture’s 15 End-to-End business
processes to create a strong linkage between architecture development and business
systems transition planning. The Business Systems Architecture is the body of
knowledge and framework describing and prescribing the activity in terms of lines of
business, process, business systems capabilities, and information. It represents a change
from previous architecture approaches of focusing on vertical functional domains to one
focused on lines of business and the 15 horizontal End-to-End processes defined in the
DoD Business Enterprise Architecture.

Army Business Systems Information
Technology Strategy
The Strategy describes the Army’s plan for governing ERPs and other business systems
using a structure that totally reflects enterprise considerations and employs business
process analysis and systems portfolio management principles. The Strategy includes
specific tasks to be completed within 90 to 180 days. These tasks focus on governance,
portfolio management, and the management of End-to-End processes. The Strategy’s
goals include achieving audit readiness by FY 2017 and enabling cost-informed
enterprise governance. It assumes two planning periods: near-term of 1 to 4 years, and
medium-term of 5 to 7 years. The near-term planning aligns with the Army’s delivery
objectives for the existing four core ERP programs and the Program Objective
Memorandum-cycle, as it validates and refines business operation strategic planning. In
the medium-term planning, the Army plans to expand its opportunities for business
process improvement capabilities. The Strategy will examine and place greater emphasis
on measuring and reporting process performance and system portfolio migration of its
ERPs.

Business Systems Information Technology
Implementation Plan
The Implementation Plan contains steps the Army will take to institutionalize and
validate improvements in governance, systems competencies, and processes over a 2-year
period. After publishing the Strategy, the same team that developed the Strategy
reconstituted as an Implementation Team with the following tasks: define the improved
Business Systems Information Technology Management Process, develop the
Implementation Plan, and oversee business systems management. The Implementation
Plan notes the Army continues to view business systems management from an enterprise
perspective and that a streamlined business management framework will provide the
guidelines for integration of the four ERPs into a holistic and auditable environment.




                                            22

Appendix E. 90- and 180-Day Strategy
Implementation Tasks
The Army did not complete 16 of the 25 implementation tasks identified in the Strategy.
Specifically, of the 90-day tasks identified in the Strategy, the Army did not complete 11
of 18. Of the 180-day tasks identified in the Strategy, the Army did not complete five of
seven.

90-Day Tasks Not Completed
Of the 90-day tasks identified in the Strategy, the Army did not complete 11 of 18.
Specifically, OBT documentation did not support completion of the following tasks.

    1.	 Continued development of the Business System Architecture.4
    2.	 Establish and adopt specific and transparent rules and steps for Business Process
        Analysis and Reengineering.
    3.	 Establish a standard Business Process Management and Reengineering framework
        and methodology.
    4.	 Assess and report on the status of its inter-ERP integration plans and milestones.
    5.	 Maintain a prioritized listing of capability improvement requirements that will be
        the subject of Business Process Analysis and Reengineering, including reporting
        on analysis and execution timelines and milestones.
    6.	 Identify challenges and enablers of operationalizing End-to-End business process
        governance.
    7.	 Coordinate new, or adjustments to existing, governance organizations’ charters to
        enable enterprise governance.
    8.	 Determine the data needed for decisionmaking by each body.
    9.	 Gather and assess data about the value of its current portfolio of systems as a
        result of the extent of the business processes they carry out.
    10. Gather and assess data about the costs (both direct and indirect) of its current
        portfolio of systems as a result of the contractual, opportunity, and unintended
        consequences of their development and use.
    11. Define a roadmap for the ongoing implementation of its ERPs and their existing
        and future capabilities’ scope.




4
 Of the 11 incomplete 90-day tasks, this task is the only task that OBT does not list as complete in their
documentation. This task is listed “Task is Behind Schedule or Under-Performing for Timely
Completion.” 




                                                     23

180-Day Tasks Not Completed
The Army did not complete five of the seven 180-day tasks identified in the Strategy.
Specifically, OBT documentation did not support completion of the following tasks.

   1.	 The Army will use its business governance bodies to make decisions of
       enterprise-wide significance, including a detailed roadmap of ERPs and their
       future capabilities’ scope.
   2.	 The Army will achieve milestone development of the Business Systems 

       Architecture required by NDAA 2009, Section 908. 

   3.	 The Army will make decisive choices among alternatives so as to begin
       optimizing its portfolio of systems, including its ERPs, particularly in the context
       of capability improvement opportunities, and the subsequent Program Objective
       Memorandum/Budget Estimate Submission processes will reflect these decisions.
   4.	 The Army will ensure it can meet its Financial Improvement and Audit Readiness
       responsibilities to achieve auditable data by FY 2017 with its systems roadmap.
   5.	 The Army will develop an implementation plan spanning the subsequent 2 years
       which contains the steps it will take to institutionalize and validate (through
       performance management and measures) improvements in governance, systems,
       competencies, and processes.




                                            24

Under Secretary of the Army Comments





                 Click to add JPEG file




                                  

Click to add JPEG file




                 

Click to add JPEG file




                 

Click to add JPEG file




                 

